Audit of NARA's Transition to Internet Protocol Version 6 

                OIG Report No. 09-05 

                   March 11,2009 

                                                                      OIG Audit Report No. 09-05



EXECUTIVE SUMMARY
The Internet protocol (lP) provides the addressing mechanism that defines how and
where information such as text, voice, and video move across interconnected networks.
Internet protocol version 4 (lPv4), which is widely used today, may not be able to
accommodate the increasing number of global users and devices that are connecting to
the Internet. As a result, IP version 6 (lPv6) was developed to increase the amount of
available IP address space. Use of both IPv4 and IPv6 is expected to overlap for some
time and the hardware and software infrastructure needed to support both IPv4 and IPv6
presents a challenge to the Federal Government.

To guide Federal Government agencies in their transition to IPv6, in August 2005, the
Office of Management and Budget (OMB) issued Memorandum M-05-22, "Transition
Planning for Internet Protocol Version 6", which outlined a transition strategy for
agencies to follow and established the goal for all Federal agency network backbones to
support IPv6 by June 30, 2008.

For this audit, we assessed NARA's efforts to transition to IPv6. Specifically, our
objective was to determine whether NARA was in compliance with the OMB mandate,
and ifnot, to identify what major obstacles or challenges exist and whether a plan for
compliance has been developed.

NARA did not comply with the OMB mandate because NARA has not verified whether
the network backbone is capable of supporting IPv6. Specifically, IPv6 testing on the
production environment did not test NARA's ability to transport IPv6 traffic through all
devices in the core network and did not test whether NARA could successfully receive
and transmit IPv6 traffic outside NARA's network. As a result, NARA does not have
assurance that the planned implementation strategy will work.

We also found that additional work is needed in order for NARA to address future
obstacles and challenges. For example, NH officials involved in planning for the
transition to IPv6 did not identify or address risks and challenges associated with the
transition. If not addressed, these risks and challenges may result in increased costs and
security risks associated with the transition to IPv6. In addition, new IT equipment
orders did not contain a requirement for products to be IPv6 compliant or interoperate
with both IPv4 and IPv6 systems. As a result, NARA may have to spend additional funds
to acquire IPv6 compliant equipment.

This report contains five audit recommendations which upon implementation would both
bring NARA into compliance with OMB requirements and provide the foundational
structure for transition to IPv6. However, full concurrence was not forthcoming from the
CIO specific to four of the recommendations.

The first two recommendations put forth were grounded in OMB criteria which NARA
failed to address. We revised the recommendations to afford the CIO opportunity to seek
a waiver from defined OMB criteria. The CIO had no additional comments on the
revised recommendations and it is unclear whether the CIO will seek a waiver from


                                          Page 1
                       National Archives and Records Administration
                                                                      OIG Audit Report No. 09-05


OMB. As of the date of issuance of this report, NARA remains in non-compliance with
OMB M-05-22.

Specific to the third recommendation, while the CIO indicates concurrence, she in fact
does not concur with the breadth of the recommendation. She does not agree with the
language in our recommendation defining participants and scope of IPv6 training to be
extended to those involved in IPv6 planning and execution.

Finally, the CIO disagreed with the fifth recommendation that NARA Interim Guidance
801-2 and Directive 805 identify IPv6 management controls to ensure IPv6 compliance.
She provides as her rational that this is unnecessary and unwarranted. We disagree with
this position as planning for new projeCts, systems, and associated procurements involve
both the capital planning and system development life cycle processes.




                                          Page 2
                       National Archives and Records Administration
                                                                       OIG Audit Report No. 09-05


BACKGROUND
Internet Protocol (lP) is the "language" and set of rules computers use to talk to each
other over the Internet. The existing protocol supporting the Internet today - Internet
Protocol Version 4 (lPv4) - provides the world with only 4 billion IP addresses,
inherently limiting the number of devices that can be given a unique, globally routable
address on the Internet. The emergence ofIPv6, providing the world with an
exponentially larger number of available IP addresses, is essential to the continued
growth of the Internet and development of new applications leveraging mobile Internet
connectivity. Although the information technology (IT) community has come up with
workarounds for this shortage in the IPv4 environment, IPv6 is the true long-term
solution to this problem. Use of both IPv4 and IPv6 is expected to overlap for some time.
The hardware and software infrastructure needed to support both IPv4 and IPv6 presents
a challenge to the Federal Government.

In August of2005, the Office of Management and Budget issued Memorandum M-05-22,
"Transition Planning for Internet Protocol Version 6," establishing the goal of enabling
all Federal government agency network backbones to support the IPv6 by June 30, 2008.

The memorandum required that the agency's network backbone be ready to transmit both
IPv4 and IPv6 traffic, and support IPv4 and IPv6 addresses, by June 30,2008. Agencies
were to demonstrate they could perform at least the following functions, without
compromising IPv4 capability or network security:

   • 	 Transmit IPv6 traffic from the Internet and external peers, through the network
       backbone (core), to the LAN.

   • 	 Transmit IPv6 traffic from the LAN, through the network backbone (core), out to
       the Internet and external peers.

   • 	 Transmit IPv6 traffic from the LAN, through the network backbone (core), to
       another LAN (or another node on the same LAN).

NARA's ChiefInformation Officer assigned the Chief Technology Officer to lead and
coordinate planning for IPv6. NARA's overriding strategy for the transition was to align
all IPv6 implementation activities with other network engineering projects and business
application release schedules to eliminate the need for multiple and costly system testing
and infrastructure recertification efforts. NARA planned to upgrade its IP-dependent
devices to IPv6 compliant levels and install, configure, and operate both IPv6 and IPv4
infrastructure on the network to provide IPv6 interoperability with external clients that
may require IPv6 addressing. This would address the OMB requirement of ensuring IPv6
compatibility and compliance. However, NARA would not operationally enable IPv6
until: (a) the overall network architecture upgrade specified in the Enterprise Architecture
was complete, (b) the business applications move to IPv6 compliant environments as part
of their product update and release strategies, and (c) IPv6 is mature, widely deployed
across the Internet, and fully supported by the IT industry.



                                           Page 3
                        National Archives and Records Administration
                                                                       OIG Audit Report No. 09-05



OJECTIVE, SCOPE, METHODOLOGY

The objective ofthis audit was to assess NARA's efforts to transition to IPv6.
Specifically, we determined whether NARA was in compliance with the OMB mandate,
and if not, to identify what major obstacles or challenges exist and whether a plan for
compliance has been developed.

The audit was conducted at Archives II in College Park, MD, primarily with the Office of
Information Services (NH). We also contacted the Acquisition Services Division (NAA).

In support of the audit objective, we evaluated NARA's actions and responses to OMB
Memorandum 05-22 milestones for transitioning to IPv6. We reviewed additional
guidelines and procedures issued by the Federal Chief Information Officers Council
(CIOC) Architecture and Infrastructure's Committee and the National Institute of
Standards and Technology's Special Publication 500-267 "A Profile for IPv6 in the U.S.
Government - Version 1.0," July 2008 in support of OMB M-05-22.

To determine whether NARA was in compliance with the OMB mandate, we analyzed
the planning activities completed, identified devices within the NARA infrastructure,
obtained and reviewed test results, reviewed the controls in place over the acquisition and
procurement process and reviewed the actions taken to address security risks associated
with the transition to IPv6. We reviewed progress reports submitted to OMB to
determine whether any challenges, risks, or other issues were identified by NARA.

To determine whether NARA adequately planned for the transition we reviewed the IPv6
Transition Strategy, Implementation Plan, and meeting notes from various planning
meetings held between January 2006 and December 2007. We also interviewed the IPv6
Project Lead along with support contractors who wrote the planning documentation.

To determine whether NARA's infrastructure contained IPv6 compliant devices we
obtained copies of equipment inventories submitted to OMB along with reports generated
from an automated monitoring tool to detect devices currently attached to the network
and the operating software loaded on the devices. We also reviewed NARANET
infrastructure drawings current as of May 2008. We compared the devices in the network
and the operating software to those devices used during IPv6 testing in the production
environment. We reviewed the test plan and test results documented to determine
whether NARA tested the scenarios required by OMB and the CIO Council in their
Demonstration Plan.

To determine whether controls were in place to ensure new IT procurements were IPv6
compliant, we interviewed NH officials to determine the procurement process for new IT
orders and reviewed existing Information Management Directives and NARA acquisition
policy. We selected nine IT procurements occurring between September 2005 and
September 2008 and reviewed the product plan (if available), solicitation documentation,
and the resulting contract to determine whether the requirement for IPv6 compliant
equipment was included.



                                           Page 4
                        National Archives and Records Administration
                                                                      OIG Audit Report No. 09-05


To determine whether NARA has taken action to address security risks we evaluated the
risks identified in the IPv6 Impact Analysis and reviewed whether NH officials and IT
staff (including contractors) responsible for implementing IPv6 received training.

Our audit work was performed at Archives II in College Park, MD between March 2008
and January 2009. We conducted this performance audit in accordance with generally
accepted government aUditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




                                          Page 5
                       National Archives and Records Administration
                                                                               OIG Audit Report No. 09-05


FINDINGS AND RECOMMENDATIONS
Testing Was Not Adequate to Demonstrate IPv6 Compliance

IPv6 testing on the production environment did not demonstrate NARA's ability to
successfully transport IPv6 traffic on the network backbone. This occurred because NH
officials did not use the ChiefInformation Officer (CIO) Council's Demonstration plan in
developing their test plan and NARA did not contact any external agencies to partner
with to complete the testing. By June 30, 2008, agencies were to confirm to OMB that
they could: transmit IPv6 traffic to and from the Internet and external peers and transmit
IPv6 traffic from the Local Area Networkl (LAN) to another LAN. As a result of
performing only limited testing, NARA does not have assurance that the planned
implementation of a dual-stack IPv6 and IPv4 architecture on NARANET will work.

By June 30, 2008, agencies were to confirm to OMB that they could:

    • 	 Transmit IPv6 traffic from the Internet and external peers, through the network
        backbone (core) to the LAN;

    • 	 Transmit IPv6 traffic from the LAN, through the network backbone (core), out to
        the Internet and external peers;

    • 	 Transmit IPv6 traffic from the LAN, through the network backbone (core), to
        another LAN (or another node on the same LAN).

The CIO Council issued additional guidance and procedures to be used by agencies in
demonstrating IPv6 compliance. This demonstration plan provided detailed procedures
on how to conduct the testing, success criterion, and the documentation of the test results.

The OMB deadline of June 30, 2008 has passed however, NARA has not verified
whether the network backbone is capable of supporting IPv6. Specifically, IPv6 testing
on the production environment did not test NARA's ability to successfully transport IPv6
traffic through all devices in the core network and did not test whether NARA could
successfully receive and transmit IPv6 traffic outside NARA's network.

Instead of using the test scripts identified in the CIO Council's Demonstration Plan, the
Chief Technology Officer (CTO) along with support contractors developed seven
scenarios to test for the June 2008 deadline. Test scenarios involved running a ping2
command between six routers at the selected NARA sites. As shown in Figure 1 below,
the scenarios included six different NARA sites using two types of Cisco routers.




1 For the demonstrations, the term "LAN" represents IPv6-configured pes or Laptops directly connected to 

IPv6 devices (routers, switches) in an Agency's operational core backbone network. 

2 Ping is a computer network tool used to test whether a particular host is reachable across an IP network. 



                                               Page 6
                            National Archives and Records Administration
                                                                                                       OIG Audit Report No. 09-05



          Figure 1. IPv6 Production Verification Testing Overview

                                                                     Tcst# 1




                        'I
                         \

                                                                                               Tut#2
                               \
                                   \
                                           \
                                                \
                                                        \
          East                                              \                                East
                                                                 \   /


                                                                 /   \
          West                                               /           \                   West
                                                        l'
                                                        (


                                                    i
                                                I
                                           ,/
                                   i
                                       /
                     Test#3 /




                                                                     Source: NARA IPv6 Production Verification Results

NARA used two Cisco 7206 VXR routers, four Cisco 3845 routers and six Dell laptops
using Windows XP to perfonn the testing. The tests did not include additional routers
and switches identified in NARANET infrastructure drawings as part ofNARA's core
backbone network.

According to the CTO, NARA's core backbone network consists of ------------------------­
------------------------------redacted pursuant to FOIA exemption "high" b(2)-----------------­



------. These devices should have been included in the IPv6 production verification
testing.

After NARA conducted its test ofthe production network an NH official reported to
OMB that testing addressed the scenarios identified by OMB and the tests were
successful. However, the production testing did not include tests to verify NARA's

                                                Page 7
                             National Archives and Records Administration
                                                                              OIG Audit Report No. 09-05


ability to transmit and receive IPv6 traffic from an external network3 . According to a
summary of the test scenarios included in the verification results, NARA's Internet
Service Provider could not provide a native IPv6 Internet environment to interface with
the NARANET production infrastructure at the time of the test, therefore NARA
emulated in previous tests4 an external IPv6 network to pass native IPv6 traffic to and
from NARANET. Guidance from the CIO Council addressed this limitation stating if an
agency's ISP is not IPv6 enabled or does not offer IPv6 internet services, a static IPv6
over IPv4 tunnel can be used between the agency gateway and the corresponding internet
border gateway.

According to OMB, agencies were required to ensure their network backbones were IPv6
capable. Agencies were to demonstrate this capability by completing the tests identified
in the CIO Council test guidance. However, NH officials did not use the CIO Council's
Demonstration Plan and instead, wrote their own test scenarios. In December 2007, the
CTO made the decision that the production testing would be internal only because testing
with an external partner would have to be done using a tunnel5 which the CTO believed
would not have any significance. No attempt was made to contact external agencies to
discuss partnering for the tests.

The purpose of the testing was to demonstrate IPv6 compliance by showing that IPv6
traffic could be successfully transported (i.e., received, processed, forwarded) through all
IPv6 devices in NARA's operational core network. In addition, the tests were to confirm
that NARA could transmit IPv6 traffic to and from the Internet and external peers as well
as transmit traffic from the LAN to another LAN. However, based on the limitations of
the testing, NARA does not have assurance that the core network is capable of supporting
IPv6 traffic. NARA should conduct IPv6 testing using the procedures outlined in the
CIO Council's demonstration plan.

Management Comments on the Finding.

The Assistant Archivist for Information Services/CIO (hereafter referred to as the CIO)
believed that NARA's actions substantively addressed the requirements to develop an
IPv6 test plan as set forth by the OMB mandate and supplemental OMB guidance. She
also believed that the tests conducted in the laboratory and on the production network
conformed to OMB guidance and in her opinion; the testing unequivocally established
that NARA's core backbone is capable of carrying IPv6 and IPv4 traffic simultaneously.
According to the CIO, NARA's network core consists of ----redacted pursuant to FOIA
exemption "high" b(2)-----, therefore, the testing actually went beyond the requirement
because the 3845 routers installed at the field sites are not part of the core network but
were tested.


3 According to the CIO Council procedures, the tenn "Internet and external peers" refers to an external 

network (i.e. a network owned and operated by an organization different from that Agency) chosen for the 

demonstrations, and which may be from a partner Agency, an ISP, or other IPv6 organization. 

4 This previous testing was conducted in the system engineering lab environment in which a server was set 

up to simulate the Internet. 

5 Tunneling allows IPv6 packets to be sent between computers via IPv4 traffic. 



                                              Page 8
                           National Archives and Records Administration
                                                                       OIG Audit Report No. 09-05


The CIO clarified that their IPv6 tests were not "conformance" tests in the formal,
engineering sense of that term and that any inference that OMB guidance provides true
IPv6 conformance testing scenarios and procedures is mistaken. The CIO believes it is
not valid to imply that their engineering methods are non-conforming or invalid based
upon general statements of intent in a policy mandate or because they did not exactly
mirror a set of ad-hoc, test scenarios. In addition, the CIO did not believe that a test
partner was needed to verify that the network backbone could transport IPv6 traffic.

Audit Response

The test guidance issued by the CIO Council clearly established the scenarios agencies
were to perform and the success criterion agencies should use to demonstrate that their
core backbones were IPv6 capable. Testing was to be performed on all devices in
NARA's operational core backbone network and was to include connectivity with an
external network. NARA's testing did not meet either of these requirements therefore,
we do not agree that the testing unequivocally established that NARA's core backbone is
capable of carrying IPv6 traffic.

We revised this finding to clarify our position on the devices that should have been tested
as part of the core network. We agree with NH officials that based on the definition of
core network provided in the CIO Council's Demonstration Plan, the 3845 routers would
not be considered part of the backbone network and removed that section from the report.
However, we disagree that the core backbone consists of --redacted, "high" b(2)-­
because those routers only aggregate traffic from NARA's field sites which does not
include the majority of users at Archives I and Archives II.

Recommendation 1

The Assistant Archivist for Information Services/CIO should ensure testing required by
OMB and outlined in the Federal CIO Council Architecture and Infrastructure Committee
"Demonstration Plan to Support Agency IPv6 Compliance," version 1.0 on NARA's
operational core network is performed and the test results as required by the CIO Council
to demonstrate compliance are documented or obtain a written waiver from OMB.

Management Comments

The CIO disagreed with this recommendation stating that she believes additional testing
as per the OMB Demonstration Plan is unnecessary and that resources would be better
spent on the overall NARANET reengineering project.

Audit Response

We revised this recommendation to include the option for the CIO to either conduct the
required testing or contact OMB to request a written waiver. The CIO had no additional
comments on the revised recommendation and it is unclear whether the CIO will seek a
waiver from OMB. NARA did not test all devices in its core network and did not test
whether NARA could transmit IPv6 traffic to and from the Internet and external peers as
required by OMB. Instead of contacting OMB regarding their concerns with the test

                                           Page 9
                        National Archives and Records Administration
                                                                      DIG Audit Report No. 09-05


scenarios or their intent to deviate from the scenarios in the CIO Council's
Demonstration Plan, NARA reported to OMB that IPv6 verification testing was
performed on the production network and testing "addressed the scenarios identified by
OMB."

The requirement set by OMB was for Federal agencies to ensure their network backbones
were IPv6 capable and there were tests agencies were required to complete in accordance
with the CIO Council test guidance. If the CIO continues to believe that the required
testing is unnecessary, she should contact OMB to request a written waiver.




                                         Page 10
                       National Archives and Records Administration
Transition Risks Not Identified or Addressed

NH officials involved in planning for the transition to IPv6 did not identify or address
risks and challenges associated with the transition. This occurred because NH officials
have not updated the IPv6 Impact Analysis since June 2006 and based their planning
activities on the beliefthat NARA will not operationally enable IPv6 in the near term. If
not addressed, these risks and challenges may result in increased costs and security risks
associated with the transition.

OMB Memorandum 05-22 required agencies to begin an impact analysis that included
both cost and risk elements. According to the memorandum, the risk analysis should
include areas such as dependencies and interoperability issues, business risks, and
security risks. NARA's IPv6 Impact Analysis included a paragraph on each area
associated with IPv6 implementation required by OMB M-05-22 but did not fully address
the associated risks. For example, the Impact Analysis does not identify any
dependencies or interoperability issues involved with IPv6 even though several NARA
systems were identified as dependent on the version ofIP that is used and did not support
IPv6. According to the Impact Analysis, "this project is only dependent upon approval of
the funding and staffing that is required to implement it. It is completely self-contained
and will not interoperate with any other system or project."

The Impact Analysis did not identify any business impact or risk associated with the
transition to IPv6. However, several critical NARA business applications, including the
Case Management and Reporting System (CMRS) and the Archival Research Catalog
(ARC), were found to be dependent upon the version ofIP that is used. According to the
CTO, NARA has lots of homegrown applications that run on IPv4 and it has yet to be
determined what percentage of those applications can easily use IPv6. The CTO also
stated ARC and CMRS would require substantial work to be able to support IPv6.

In another example, the Impact Analysis considered IPv6 to be no more or less secure
than IPv4 and therefore, would not pose any new security risks to IT operations. Reports
issued by the Government Accountability Office along with a Department of Homeland
Security US-CERT advisory discuss multiple security issues concerning IPv6.
According to GAO, IPv6 creates new opportunities for network abuse ifIPv6 capable
devices are not properly managed. Two IPv6 features-automatic configuration and
tunneling-could present serious risks to federal agencies. Automatic configuration can
facilitate network attacks because a rogue or unauthorized router may reconfigure
neighboring devices by assigning them new addresses and routes. Tunneling can permit
unauthorized traffic into the network undetected. The US-CERT alert warned federal
agencies that unmanaged, or rogue, implementations ofIPv6 present network
management security risks. NARA's Impact Analysis did not address these security
risks.

The IPv6 Impact Analysis identified training costs for 15 NH employees involved in the
IPv6 transition however, training has not been provided. According to GAO, a challenge
to the transition will be maintaining dual IPv4 and IPv6 environments for extended
periods of time. Maintaining two network protocols is challenging in that it adds

                                          Page 11
                        National Archives and Records Administration
                                                                           DIG Audit Report No. 09-05


complexity to network maintenance and associated costs are higher. It also requires
skilled personnel and may be difficult to maintain hardware and software interoperability
across dual environments. NARA IPv6 planning documents did not address this
challenge.

NH officials have not updated the IPv6 Impact Analysis since June 2006. At that time,
NH officials based their planning activities on the belief that NARA will not
operationally enable IPv6 in the near term. The impact analysis alludes to future risks
once IPv6 is enabled however, the plan states that implementation was not being
considered since it was not required to meet the OMB mandate.

In December 2008, the CIO Council issued draft guidance6 for adopting IPv6 within the
Federal government. According to the guidance, the next phase is the deployment of
secure, end-to-end, IPv6-enabled network services which support federal agency core
missions and applications. The guidance establishes a proposed timeline of January 2010
for Federal agencies to begin the transition phase. With the transition one year away,
NARA should update the Impact Analysis to identify and address those risks and
challenges associated with the transition and maintaining a dual-stack network. Knowing
what risks there are and how to mitigate them appropriately will lessen problems in the
future. If challenges and risks are not addressed, NARA will face potentially increased
costs and security risks associated with the transition.

Management Comments on the Finding

The CIO stated that IPv6 has been identified as one of a number of interrelated network
technologies in the Enterprise Architecture to be incorporated into the future design of
NARANET. Specifically, NARA is migrating from a Frame Relay service to
Multiprotocol Label Switching (MPLS) services under the Networx contract and OMB's
Trusted Internet Connections requirement will force a complete reconfiguration of
NARA's Internet Service Provider interface at the network edge. The CIO stated that the
integration risks and complexities oftransitioning to IPv6 require that it be pursued as
one element of a comprehensive NARANET reengineering strategy and that to do
otherwise would introduce unacceptable business risk, cost, and operational complexity
toNARA.

The CIO stated that several statements in the draft report prematurely highlight the need
to address "future" obstacles, risks, and challenges associated with implementing IPv6 in
NARA's production environment. The CIO agreed that additional work efforts will be
required in the future when NARA transitions to IPv6 deployment and operation,
however, she did not believe that these "future" work efforts are applicable to satisfying
the OMB mandate of verifying IPv6 capabilities in the network core.




6Architecture and Infrastructure Committee, Federal Chief Information Officers Council, "The Business
Case and Roadmap for Completing IPv6 Adoption in US Government," Draft, version 0.1, December 22,
2008

                                             Page 12
                           National Archives and Records Administration
                                                                       OIG Audit Report No. 09-05


Audit Response

We agree that transitioning to IPv6 should be part of the comprehensive NARANET
reengineering strategy however, we do not agree with the CIO's approach to delay
addressing risks with IPv6 until IPv6 is deployed and in operation at NARA. The
purpose of creating an impact analysis was to determine fiscal and operational impacts
and risks of migrating to IPv6. NARA officials focused on satisfying the OMB mandate
to verify IPv6 capabilities in the network core by June 30, 2008 instead of creating a
comprehensive plan to prepare for the eventual transition to IPv6. The risks and
challenges associated with IPv6 need to be addressed now in order to plan how those
risks will be mitigated when IPv6 is implemented.

Recommendation 2

The Assistant Archivist for Information Services/CIO should update the IPv6 Impact
Analysis to address the security and business risks associated with implementing IPv6 or
obtain a written waiver from OMB that waiting until IPv6 is implemented to address risks
is an acceptable posture.

Management Comments

The CIO agreed with the recommendation but stated this should be handled as part of the
NARANET redesign project. The CIO added that this should not be inferred as an issue
of compliance with the past OMB M-05-22 mandate requiring a specific impact analysis
at a past point in time. According to the CIO, risks associated with "implementing" IPv6
were not applicable to this project because there was no requirement or intent to
"implement" IPv6 in production, just to verify certain IPv6 capabilities in the network
core.

Audit Response

While the CIO indicated she agreed with this recommendation, her comments show that
she does not agree with the intent of the recommendation. This recommendation
addresses NARA's lack of planning for the transition to IPv6. The impact analysis was
to aid agencies in planning for the transition by identifying fiscal and operational impacts
and risks of migrating to IPv6. NARA has not identified those impacts and risks because
NARA officials focused their planning efforts on meeting the OMB June 30, 2008
deadline to verify the capability of the network core, instead of planning for the eventual
transition to IPv6. It is imperative that NARA identify potential issues and risks with the
transition to IPv6 and ensure that risks are appropriately mitigated before IPv6 is
implemented. We revised the recommendation so that if the CIO continues to believe
that addressing IPv6 risks and challenges can be delayed until NARA implements IPv6
then she can request a written waiver from OMB that this is an acceptable posture.




                                          Page 13
                        National Archives and Records Administration
                                                                       OIG Audit Report No. 09-05


Recommendation 3

The Assistant Archivist for Information Services/CIO should ensure employees
responsible for planning, implementing, maintaining, and securing an IPv6 network for
NARA receive appropriate IPv6 training.

Management Comments

The CIO agreed with this recommendation, but believed that this should be handled as
part ofthe NARANET redesign project. The CIO also noted that this is not a matter of
training but rather a skill required for network engineers going forward, similar to IPv4
currently.

Audit Response

While the CIO indicated she agreed with this recommendation, her comments show that
she does not agree with the intent of the recommendation. We continue to disagree with
the CIO's position that IPv6 training would only be needed for network engineers.
According to the CIO Council, most IT personnel will require formalized training. In
their Transition Guidance, the CIO Council identifies four main categories of education:
awareness, architectural, operational, and specialized. In order to help ensure a
successful transition to IPv6, the CIO should provide appropriate training to those
employees responsible for planning, implementing, maintaining, and securing an IPv6
network.




                                          Page 14
                        National Archives and Records Administration
Controls Not In Place to Ensure New IT Procurements were IPv6 Compliant

Orders for IT networking equipment did not include a requirement for IPv6 compliant
equipment. This occurred because management controls identified in the IPv6 Transition
Plan were not implemented. OMB Memorandum 05-22 states that in order to avoid
unnecessary costs in the future, agencies should, to the maximum extent practicable,
ensure that all new IT procurements are IPv6 compliant. As a result of not implementing
necessary management controls, NARA may have to spend additional funds to acquire
IPv6 compliant equipment.

According to OMB Memorandum 05-22, any new IP product or system developed,
acquired, or produced must:

   • 	 Interoperate with both IPv6 and IPv4 systems and products;

   • 	 If not initially compliant, provide a migration path and commitment to upgrade to
       IPv6 for all application and product features by June 2008; and

   • 	 Have available contractor/vendor IPv6 technical support for development and
       implementation and fielded product management.

According to NARA's IPv6 Transition Plan, management controls were to be
implemented in the Enterprise Architecture, Capital Planning and Investment Control
(CPIC), Systems Development Life Cycle (SDLC) and procurement processes in order to
verify and assure IPv6 compliance. The transition schedule shows these controls should
have been implemented during the third quarter ofFY 2006. NARA Interim
Directive 801-2 "Review ofIT Investments" was updated in July 2006 however, the
recommended controls identified in the transition plan were not included in the revision.
NARA Directive 805 "Systems Development Life Cycle" was last updated in January
2002 with two supplements to the directive issued in July 2005. Neither document
addressed the controls identified in the transition plan.

NH contractor support personnel provided the Enterprise Architecture Conformance
Review checklist they use to review product plans. The checklist includes a box to verify
whether IPv6 compliance requirements were specified. While this checklist is useful, it
has some limitations and cannot be relied on as the only review for IPv6 requirements.
For example, this checklist is used only by the contractor support personnel and the
contractors do not review every product proposal. Also, the checklist is only used in the
review of full product plans therefore, projects requiring only a summary proposal or
purchases of IT equipment outside the CPIC process would not be reviewed for IPv6
compliance.

We reviewed a sample of nine IT purchases occurring between September 2005 and
September 2008. As shown in Table 1 "Review ofIT Purchases," none ofthe orders
reviewed contained a requirement that the equipment had to be IPv6 compatible. In
addition, only three of the nine orders went through the CPIC process. Of the three that



                                         Page 15
                       National Archives and Records Administration
                                                                                  OIG Audit Report No. 09-05


did go through the CPIC process, evidence was available to show that IPv6 compliance
was considered during the acquisition process for only one of the orders.

                                      Table 1. Review of IT Purchases

                    I                                            Il».v6 RequireIllents   IfV6Compliance
                                                                 ··Reviewed ~spR:rt        . Included
                                                                                             ,  ",",'
                                                                                                        in
  Order No.     ,              ~~sc~iption     Order Amount        of ePIC Process?            lilrder?
                          ..



1. NAMA-07-F­                                                                                    No
                                Switches          $2,003,376              No
0136

2. NAMA-08-F­                                                                                    No
                          PBX Upgrade             $1,197,387             Yes
0148

3. NAMA-06-F­                                                                                    No
                                Switches           $507,721              N/A
0107

4. NAMA-05-F­                  Cisco 3845                                                        No
                                                   $340,028              N/A
0108                             routers

5. NAMA-07-F­           Citrix Server and                                                        No
                                                   $268,231               No
0146                    Access Gateway

                           Cisco lOS,
6. NAMA-08-M­               memory                                                               No
                                                   $216,111              N/A
0098                      upgrades, and
                             switch

7. NAMA-07-F­             Redundant                                                              No
                                                   $73,698               N/A
0116                    Switches for STL

                            Essential
8. NAMA-06-F­            Elements of the                                                         No
                                                   $73,678               N/A
0138                     COOP Network
                          and Firewall

9. NAMA-07-F­                Switches,                                                           No
                                                   $69,597               N/A
0120                    fIrewall, & routers


In one example, NARA planned an upgrade of obsolescent NARANET switches in
FY 2007. The contract was awarded for $2 million and did not mention a requirement
for IPv6 compliant equipment in the Request for Quote or the order. The replacement of
NARANET switches went through the CPIC process however, the need for IPv6
compliant equipment was not mentioned in the product proposal. NH support contractors
were not asked to review this full product plan therefore, an Enterprise Architecture
conformance review checklist was not completed for this project.

In another example, NARA bought equipment in September 2005 that had to be upgraded
or replaced in order for the devices to be IPv6 compliant. NARA spent $340,000 for 40
Cisco 3845 routers with accessories. The devices were not IPv6 capable because the

                                                     Page 16
                                   National Archives and Records Administration
                                                                      OIG Audit Report No. 09-05


router operating system did not have the feature pack needed to support IPv6 traffic. In
September 2008, NARA spent $216,000 to purchase upgrades for the router operating
systems, flash memory cards, and memory upgrades.

A key milestone identified in NARA's Transition Plan was to adjust standard contracting
language to assure that any new products and services procured by the agency would be
IPv6 compliant or would have a commitment from the vendor to upgrade to IPv6
compliance. This management control was to be in place by June 30, 2006. An NH
official stated that standard contract language was sent to the Acquisitions Services
Division (NAA) to be included in the NARA Procurement Guide around June 2006
however, NAA did not update the guide due to resource issues. If this management
control is not implemented, NARA may have to spend additional funds to acquire IPv6
compliant equipment.

Recommendation 4

The Assistant Archivist for Administration should direct the Director, Acquisitions
Services Division to develop standard contract language for all IT orders to require IT
products and services be IPv6 compliant.

Management Comments

The Director NAA concurred with this recommendation stating that he will add a
statement to IT equipment purchases that all equipment and software delivered to NARA
must be IPv6 compliant.

Recommendation 5

The Assistant Archivist for Information Services/CIO should update NARA Interim
Guidance 801-2 and NARA Directive 805 to include those management controls
identified in the NARA IPv6 Transition Plan to ensure all NARA IT projects, systems,
and associated procurements are IPv6 compliant.

Management Comments

The CIO disagreed with this recommendation as written and asked that the OIG
reconsider the approach. According to the CIO, NARA 812 and the Enterprise
Architecture already contain this requirement. In addition, the CIO stated that it may not
make sense to put specific technology requirements directly into the CPIC and SDLC
policy documents because it would create a constant need to update and change policy
every time a new technology requirement came along or an old technology requirement is
retired. The CIO stated fixing management controls around acquisition and their
approval and signoff procedures may be a better option.

Audit Response

We do not agree with the CIO that current controls within the Enterprise Architecture
adequately address this requirement. In addition, management controls for ensuring IPv6

                                         Page 17
                       National Archives and Records Administration
                                                                      OIG Audit Report No. 09-05



requirements cannot be limited to only the acquisition process. Planning for new projects
and systems along with associated procurements involve both the CPIC and SDLC
processes. The IPv6 Transition Plan identified specific management controls that should
be implemented within the CPIC and SDLC processes. For example, the plan
recommends that controls be established within the Decide phase of the CPIC process to
specifically identify IPv6 compliance as part of the proposed solution and ensure that
IPv6 costs are accurately reflected in the cost estimates. Including controls within NARA
Interim Guidance 801-2 and NARA Directive 805 is necessary to ensure NARA's
compliance with OMB policy.




                                         Page 18
                       National Archives and Records Administration
                                                                                             Appendix A
                      National Archives and Records Administration
                                                                                             8601 Adelphi Road
                                                                            College Park, Maryland 20740-6001
                  .FEB 27 2009
Date:

To:          Office of the Inspector General (OIG)

From:        Office of Information Services (NH)

Subject:     Draft Report 09-05, Audit ofNARA's Transition to Internet Protocol Version 6 (IPv6)

             We have reviewed the draft OIG Report No. 09-05, January 16,2009, titled Audit ojNARA 's
            Transition to Internet Protocol Version 6. We have also met with OIG staff on two occasions
            to discuss the draft. First, we want to thank your staff for meeting with us and providing a
            draft report that is well written and organized--it is clear that the auditor dedicated significant
            time in understanding the issues and presenting a coherent argument.

             Nevertheless, based upon several of the findings and the recommendations set forth in this
             draft report, we believe we mustfespond thoroughly to several issues, which in our opinion,
            reflect misinterpretations regarding NARA's response to OMB Memo M-05-22, Transition
            Planningfor Internet Protocol Version 6. In the table attached, we provide detailed
            responses to the draft audit report. The OIG made five recommendations; we concurred with
            two recommendations with comment; we disagreed with two recommendations, and one
            recommendation was to the Assistant Archivist for Administration. Our response to each
            recommendation is found on the attached matrix.

            A summary of our major observations and comments on the draft follow:

            1. Although we recognize that the OIG is simply restating OMB's language, we believe
           OMBM-05-22 does not outline a viable transition strategy or any other type of strategy for
           IPv6 implementation. This memorandum merely asserts' a general policy mandate for
           planning IPv6 adoption. We believe it is inappropriate to consider this policy mandate and its
           associated guidance a valid, step-by-step, conformance testing and implementation approach
           for establishing IPv6 capability. In our opinion, transitioning to IPv6 cannot be undertaken or
           validated as an end unto itself. The integration risks and complexities oftransitioning to IPv6
           require that it be pursued as one element of a comprehensive NARANET reengineering
           strategy. To do otherwise would introduce unacceptable business risk, cost, and operational
           complexity to NARA.

           2, We believe we substantively addressed the requirements to develop an IPv6 test plan as set
           forth by the M-05-22 mandate and supplemental OMB guidance. We also believe that the
           tests we conducted in our laboratory and on our production network conform to OMB
           guidance. In our opinion, we have tested beyond what is implied by the mandate and our tests
           have unequivocally established that NARA's corelbackbone is capable of carrying IPV6 and
           IPv4 traffic simultaneously. In addition, we demonstrated our capability to communicate
           externally through emulation in our laboratory,




                                  NARA 's web site is http://www.archives,gov
 3. Our test reports have been written to show our capability regarding the essential intent of
 the OMB mandate, that being, to pass IPv6 packets through the network core. The reports are
 surely not "legal" documents required to show adherence to certain step-by-step procedures
 asserted by OMB or any other organization. We want to make it clear that our IPv6 tests,
 whether conducted in our laboratory or in the production network, are not "conformance"
 tests in the formal, engineering sense of that term, and that any inference that OMB guidance
 provides true IPv6 conformance testing scenarios and procedures is mistaken. Formal
 conformance testing requires rigorous test suites and test beds to verify specific engineering
 requirements against well-understood standards. Since NISI is just now in the process of
 establishing IPv6 compliance standards and test mechanisms for the Federal government, we
 feel it is not valid to imply that our engineering methods are non-conforming or invalid based
 upon general statements of intent in a policy mandate or because we did not exactly mirror a
 set of ad-hoc, test scenarios.

4. What OMB has produced over the last couple of years regarding IPv6 testing is neither a
rigorous test suite nor a set of well-understood standards. What'OMB has produced can only
be considered guidan~e to assess the general viability of certain, specific IPv6 capabilities
within certain parts of an agency's network. Additionally, the guidance has changed over
time, presumably based on feedback from Federal agencies. Initially, IPv6 was supposed to
have been implemented or "used" within the core of an agency's network by June 30, 2008.
Subsequent OMB guidance changed the requirement from be "used" to being "ready to pass
IPv6 traffic and support IPv6 addresses within the core" by June 30, 2008.

Neither has there been a consistent definition of "corelbackbone." The current definition
identifies major "aggregation nodes" as "corelbackbone." NARA can identify such
aggregation nodes within our current Frame Relay environment, but such identification would
not be possible if an agency has an MPLS network. For an MPLS network, one may be able
to approximately identify a "core/backbone" by saying "a set of nodes experiencing the
heaviest traffic." The point is that "corelbackbone" can only be defined within a certain
context, and it is a general concept that is only minimally useful for the purpose of
engineering network implementations. It is not possible for OMB or any other organization to
have procedures, tests and standards defined for a multitude of unknown "corelbackbone"
definitions.

5. OMB continues to refine guidance related to IPv6 in response to feedback from Federal
agencies, and in recognition oflI product and service market realities. We expect that this
refinement will continue for the foreseeable future. Irrespective of these future
considerations, Federal agencies can plan for the arrival oflPv6; and we are doing so.

We have identified IPv6 as one of a number of interrelated network technologies in the
Enterprise Architecture (EA) to be incorporated into the future design ofNARANET. In the
short-term, we have taken the OMB IPv6 mandate seriously and have performed significant
IPv6 verification testing--within the real world constraints of IPv6 adoption and availability in
the IT product and service marketplace, and ever cognizant of the risks to NARA's business
operations. We would add that expending resources to perform additional testing as
prescribed by OMB and as recommended in the report would not be a fruitful activity since




                             NARA 's web site is http://www.archives.gov
we would be testing on an infrastructure that will be replaced. Currently, (a) NARA is now
migrating from Sprint's Frame Relay services to Qwest's MPLS services under Networx, and
(b) the OMB Trusted Internet Connections (TIC) requirement will force a complete
reconfiguration ofNARA's Internet Service Provider (lSP) interface at the network edge,
activities that would make additional testing as prescribed by the OMB Demonstration Plan of
questionable value.

Finally, we believe that there are several statements in the draft report that prematurely
highlight the need to address "future" obstacles, risks, and challenges associated with
implementing IPv6 in NARA's production environment. Although it is true that additional
work efforts will be required in the future when NARA transitions to IPv6 deployment and
operation, we do not believe that these "future" work efforts are applicable to satisfying the
M-05-22 mandate of verifying IPv6 capabilities in the network core.

We hope you consider these comments and those on the attached matrix as you develop your
final draft of the audit report. As always, we are available to discuss any issues and meet with
your and your staff. If you have specific questions about the text of the response, please call
Haseen Uddin on 301-837-3072 or via email at haseen.uddin@nara.gov.




Attachment: Detailed Comments on 010 IPv6 Audit Report No. 09-05




                           NARA 's web site is http://www.archives.gov
                               Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

                          Report Statement                                     Page I                            Comment I Rationale
                                                                             Paragraph

To guide Federal Government agencies in their transition to IPv6, in        Page 1 /      We do not agree that M-05-22 outlines a transition strategy.
August 2005, the Office of Management Budget issued Memorandum              Paragraph 2
M-OS-22, "Transition Planning for Internet Protocol Version 6", which
                                                                                          Although we recognize that the OIG is simply restating OMB' s
outlined a transition strategy for agencies to follow and established the
                                                                                          language, in our opinion OMB M-05-22 does not outline a transition
goal for all Federal agency network backbones to support IPv6 by June
                                                                                          strategy or any other type of strategy. It merely asserts a general
30,2008.
                                                                                          policy mandate for planning IPv6 adoption.

NARA did not comply with the OMB mandate because NARA has not               Page 1 /      We disagree with this assertion. We believe that we verified that
verified whether the network backbone is capable of supporting IPv6.        Paragraph 4   the NARANET backbone is capable of supporting IPv6. /
Specifically, IPv6 testing on the production environment did not test
NARA's ability to transport IPv6 traffic through all devices in the core
                                                                                          Our production testing conclusively verified and documented that
network and did not test whether NARA could successfully receive and
                                                                                          IPv6 packets can be propagated on and routed through the core of
transmit IPv6 traffic outside NARA's network. As a result, NARA
                                                                                          NARANET. Our simulations in the lab proved that our network
does not have assurance that the planned implementation strategy will
work.                                                                                     equipment configurations are capable of routing IPv6 packets to and
                                                                                          from NARANET at the edge (outside) of the network. The lab
                                                                                          simulations we performed were our best alternative for testing the ISP
                                                                                          interface at the time of the test because our ISP could not provide a
                                                                                          native IPv6 interface at that time.

                                                                                          This mandate did not assert a requirement to "implement" IPv6 in
                                                                                          production, so we believe that any "implementation strategy", outside
                                                                                          of our strategy for verification testing of certain IPv6 capabilities, is
                                                                                          not germane to this mandate or this discussion. Both the last section
                                                                                          ofM-05-22 and Appendix C state that additional guidance on IPv6
                                                                                          will be provided by the CIO Council Architecture and Infrastructure
                                                                                          Committee. This subsequent guidance stated that IPv6 does not need
                                                                                          to be operationally enabled by June 30, 2008; i.e., there was not an
                                                                                          "implementation" requirement to make IPv6 operational, only a
                                                                                          requirement to verify certain IPv6 capabilities in the network core.
                              Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

                          Report Statement                                     Page I                             Comment I Rationale
                                                                             Paragraph

We also found that additional work is needed in order for NARA to            Page 1/       We believe this paragraph inaccurately highlights the need to
address future obstacles and challenges. For example, NH officials           Paragraph 5   address the "future" obstacles, risks, and challenges associated
involved in planning for the transition to IPv6 did not identify or                        with implementing IPv6 in NARA's production environment.
address risks and challenges associated with the transition. If not                        Although it is true that additional work efforts will be required in
addressed, these risks and challenges may result in increased costs and                    the future when NARA transitions to IPv6 deployment and
security risks associated with the transition to IPv6. In addition, new IT                 operation, we do not believe that these "future" work efforts are
equipment orders did not contain a requirement for products to be IPv6                     applicable to satisfying the M-OS-22 mandate to verify IPv6
compliant or interoperate with both IPv4 and IPv6 systems. As a result,                    capabilities in the network core.
NARA may have to spend additional funds to acquire IPv6 compliant
equipment.                                                                                 The sUlmnary paragraph of our strategy states: "Since NARA had no
                                                                                           immediate operational need for IPv6, it was determined that the
                                                                                           strategy going-forward would be to align all IPv6 engineering,
                                                                                           acquisition, and implementation activities with other network
                                                                                           engineering projects and business application release schedules. This
                                                                                           approach would eliminate the need for multiple and costly system
                                                                                           testing, rollout, and infrastructure recertification efforts." (Section 1.2
                                                                                           page 3, IPv6.Closeout.Report).

                                                                                           The risks associated with the IPv6 verification testing activities
                                                                                           required by the mandate are documented in section 10, page 41 of the
                                                                                           IPv6.Implementation. Plan. Section 5, page 8 of the IPv6 Closeout
                                                                                           Report summarizes additional risks and considerations that are key to
                                                                                           the actual implementation of IPv6 at NARA.

                                                                                           Although we agree that future risks associated with implementing,
                                                                                           integrating, and operating IPv6 will need to be addressed (and they
                                                                                           will be), we do not believe that they are germane to this mandate, or
                                                                                           its specific deliverables and timeframes.
   Detailed Responses to DIG IPv6 Audit Report No. 09-05, January 16, 2009

Report Statement                    Page I                          Comment I Rationale
                                  Paragraph


                                              Although we agree that NARA may need to spend additional funds to
                                              acquire IPv6 compliant equipment in future, this will be due to the
                                              timing of and requirements for actual IPv6 implementation, not
                                              necessarily because of past procurements. In the future, some
                                              products that NARA has acquired may need upgrades for production
                                              implementation of IPv6, some may not, and some may need to be
                                              replaced. However, IPv6 is but one factor in these considerations and
                                              many of the specific engineering requirements for production
                                              operation of IPv6 by way of developing a bill of materials (BOM) are
                                              unknown at this time. Additionally, NIST is just now establishing
                                              IPv6 standards, and USG compliant IPv6 devices are not expected to
                                              be available for acquisition until July 2010.

                                              Although we agree that we should try to acquire IPv6 capable
                                              products and services, we need to recognize that some product
                                              vendors and service providers may not provide products that are IPv6
                                              capable at this time, and some segments of the market like ISPs, IP
                                              telephony vendors, security product vendors, and middle ware vendors
                                              are not yet transitioned to IPv6. NARA needs to be careful not to
                                              prohibit the use of products and services needed to support today's
                                              business operations because those products do not yet support an
                                              implementation requirement that may be more than 5 years in the
                                              future. OMB M-05-22 actually states that:

                                              "To avoid Ulmecessary costs in the future, you should, to the
                                              maximum extent practicable, ensure that all new IT procurements are
                                              IPv6 compliant. Any exceptions to the use of IPv6 require the
                                              agency's eIO to give advance, written approval. .. "
                            Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

                        Report Statement                                    Pagel                            Comment I Rationale
                                                                          Paragraph

IPv6 testing on the production environment did not demonstrate           Page 5 /      We disagree with this assertion. We believe that our tests and the
NARA's ability to successfully transport IPv6 traffic on the network     Paragraph 1   corresponding results clearly demonstrate that NARA's backbone
backbone. This occurred because NH officials did not use the Chief                     can and did propagate, transport, and route IPv6 traffic. /
Information Officer (CIO) Council's Demonstration plan in developing
their test plan and NARA did not contact any external agencies to                      IPv6 packets were clearly propagated, transported, and routed through
partner with to complete the testing.                                                  the network backbone as is evident by the results of 7 different ping
                                                                                       test scenarios. We believe our test results are valid even if they did
                                                                                       not mirror the OMB Demonstration plan test scenarios verbatim.
                                                                                       Also, verifying that the network backbone can transport IPv6 traffic
                                                                                       does not require a test partner in our opinion.

The OMB deadline of June 30, 2008 has passed however; NARA has           Page 5 /      We disagree with this assertion. We believe we have clearly 

not verified whether the network backbone is capable of supporting       Paragraph 4   demonstrated that IPv6 packets can traverse the backbone and 

IPv6. Specifically, IPv6 testing on the production environment did not                 we have documented test results that support our position. / 

test NARA's ability to successfully transport IPv6 traffic through all
devices in the core network and did not test whether NARA could                        We believe that our tests and the corresponding results demonstrate
successfully receive and transmit IPv6 traffic outside NARA's network.                 that NARA can transport IPv6 traffic through the network core. IPv6
                                                                                       packets were clearly propagated on and transported tlu·ough the
                                                                                       network core as is evident by the results of 7 different ping test
                                                                                       scenarios. We also believe that the simulation tests we performed in
                                                                                       the lab demonstrate that NARA's infrastructure components will be
                                                                                       able to receive and transmit IPv6 traffic to/from NARA's network
                                                                                       core, when there is a source for such traffic.

                                                                                       OMB asserts at least two different definitions for the network
                                                                                       corelbackbone as listed below. Based on OMB's second and most
                                                                                       current definition, NARA's core would consist only of the Cisco 7206
                                                                                       routers in College Park and St. Louis. By this definition, our testing
                                                                                       actually went beyond this requirement.
                               Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

                          Report Statement                                     Page I                             Comment I Rationale
                                                                             Paragraph

                                                                                              ..
                                                                                          (1) E·GOVFederal Govemment Transition Internet Protocol Version
                                                                                          4 (IPv4) to Internet Protocol Version 6 (lPv6) Frequently Asked
                                                                                          Questions, 2/15/06.

                                                                                          "The "backbone" includes the wide area network (WAN) core up to
                                                                                          the local area network (LAN) point of demarcation. The LAN
                                                                                          demarcation point is the device (e.g., router, switch) which services
                                                                                          the workstations)."

                                                                                          (2) Demonstration Plan to Support Agency IPv6 Compliance, Version
                                                                                          1.0, January 28, 2008.

                                                                                          "For the purposes of the IPv6 transition, the core network (a.k.a.
                                                                                          backbone network) is the set of network transport devices (routers,
                                                                                          switches) that provide the highest level of traffic aggregation in the
                                                                                          network, and thus at the highest level of hierarchy in the network."

The CIO Council emphasized that the demonstration oflPv6                    Page 61       We disagree with this assertion. The upgrades were made for the
compliance must be performed on the Agency's operational core               Paragraph 2   purposes of the test - directly on the NARANET production
network. However, NARA had to modify equipment software in order
                                                                                          network devices and the test were executed concurrent with
to perform the testing. Specifically, the operating software installed on
                                                                                          normal NARANET operations on those devices. 1
the Cisco 3845 routers was not IPv6 capable. NH officials agreed to
upgrade only those four devices involved in the testing and then remove
                                                                                          Based on Cisco's "Hierarchical Networking Model" definition and
the update once the test was complete. Therefore, testing conducted
                                                                                          OMB's Demonstration plan definition, the 3845 routers installed at
was not an accurate reflection ofNARA's operational core network.
                                                                                          the field sites are part of the distribution layer of the network, not the
                                                                                          "core" layer of the network. The 7206 routers that constitute the core
                                                                                          layer of the network can support IPv6 operationally as-is from a
                                                                                          HW/IOS perspective.
                              Detailed Responses to DIG IPv6 Audit Report No. 09-05, January 16, 2009

                          Report Statement                                     Page I                            Comment I Rationale
                                                                             Paragraph


                                                                                          Additionally, we went beyond this limited definition of "core" and
                                                                                          actually included testing of selected field site 3845 routers in the
                                                                                          network distribution layer across the entire country. However, the
                                                                                          changes needed to be rolled-back from the 3845 routers because it is
                                                                                          bad operations management practice to leave components installed
                                                                                          that are not in use, and doing so would violate the "Least Privilege"
                                                                                          NIST security control [AC-6.2]: "For moderate or high confidentiality
                                                                                          information systems, NARA shall employ the concept of least
                                                                                          privilege for specific duties and information systems (including
                                                                                          specific ports, protocols and services) in accordance with risk
                                                                                          assessments as necessary to adequately mitigate risk to NARA
                                                                                          operations, NARA assets and individuals."

After NARA conducted its test ofthe production network an NH                Page 6 /      We disagree that the CIO Council's guidance prescribing a
official reported to OMB that testing addressed the scenarios identified    Paragraph 3   tunneling approach addresses the limitation of an agency's ISP
by OMB and the tests were successful. However, the production               onto page 7   not being IPv6 enabled. In our opinion this is not valid from a
testing did not include tests to verify NARA's ability to transmit and                    network engineering perspective. /
receive IPv6 traffic from an external network. According to a summary
of the test scenarios included in the verification results, NARA's
                                                                                          When tunneling as suggested, IPv6 packets are not propagated or
Internet Service Provider could not provide a native IPv6 Internet
                                                                                          routed, IPv4 packets are. This is no different that what is performed
environment to interface with the NARANET production infrastmcture
                                                                                          on the IPv4 network today. The suggested tunneling configuration
at the time of the test, therefore NARA emulated in previous tests an                     does not verify IPv6 traffic propagation or IPv6 routing.
external IPv6 network to pass native IPv6 traffic to and from
NARANET. Guidance from the CIO Council addressed this limitation
stating if an agency's ISP is not IPv6 enabled or does not offer IPv6
internet services, a static IPv6 over IPv4 tunnel can be used between the
agency gateway and the corresponding internet border gateway.

According to OMB, agencies were required to ensure their network            Page 7 /      The OMB Demonstration plan guidance was promulgated too late
                            Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

                        Report Statement                                   Page I 
                          Comment I Rationale
                                                                         Paragraph 

                                                                                                h'"


backbones were IPv6 capable. Agencies were to demonstrate this           Paragraph 2   to be used by NARA without seriously disrupting our IPv6 testing
capability by completing the tests identified in the CIO Council test                  and EA submission schedules. Although our test scenarios did
guidance. However, NH officials did not use the CIO Council's                          not mirror the scenarios set forth in the OMB Demonstration
Demonstration Plan and instead, wrote their own test scenarios. In                     plan verbatim, we believe they were sufficiently robust to
December 2007, the CTO made the decision that the production testing                   demonstrate IPv6 capability in the network core. /
would be internal only because testing with an external partner would
have to be done using a tunnel which the CTO believed would not have                   The OMB Demonstration plan guidance did not come out until after
any significance. No attempt was made to contact external agencies to                  NARA had completed lab testing and the majority of our production
discuss partnering for the tests.                                                      test development and preparation was complete. (NARA was actually
                                                                                       late on our schedule - we had planned to complete the production tests
                                                                                       just prior to the XMAS holiday break.) The OMB Demonstration plan
                                                                                       guidance was received only 28 days before NARA's EA submission
                                                                                       was due, and it is important to remember that the EA submission
                                                                                       required IPv6 work products. It was decided that it was too late to
                                                                                       change the testing strategy because it would have caused rework that
                                                                                        could have jeopardized completion of the tests and could have
                                                                                        impacted our EA scores.

                                                                                       As stated above, we simulated the ISP interface because
                                                                                       VerizonlUUNET did not provide a native IPv6 feed at the time of the
                                                                                       test. In our opinion, setting up a test-bed with an external agency
                                                                                       would have been no more representative ofNARA's production
                                                                                       environment than our simulations because an external agency test-bed
                                                                                       is not an ISP nor would it necessarily simulate one. As stated above,
                                                                                       tunneling IPv6 through IPv4 does not validate any aspect ofIPv6
                                                                                       functionality in our opinion.

The purpose of the testing was to demonstrate the implementation and                   We disagree with this assertion. We believe that our tests and the
the interoperability of a dual-stack IPv6 and IPv4 architecture on the                 corresponding results clearly demonstrate that NARA's backbone
core ofNARANET however, based on the limitations of the testing,
                                 ,~~         ,   ,~,~"
                                                                                       can tra~.sJ1ort IPv6..and IPv4 trafr.ic c.oncurr~ntly. Installing lOS
                              Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

                         Report Statement                                   Page I                               Comment I Rationale
                                                                          Paragraph
NARA does not have assurance that their IPv6 strategy will work or                                    '"   c"y        ,,> ~   ,




that the core backbone is capable of supporting IPv6 traffic. In                      upgrades on the 3845s and retesting will just consume time and
                                                                                      resources to repeat more instances of what we have already done.!
September 2008, NH officials purchased lOS upgrades for the 3845
routers so that routers will be IPv6 capable. Once the lOS upgrades are
                                                                                      The test scenario in the CIO Council's Demonstration plan that
installed, NARA should conduct IPv6 testing using the procedures
outlined in the CIO Council's demonstration plan.                                     applies to the 3845s has already been performed. As noted above,
                                                                                      depending on the definition of "core" that is used, the 3845s may not
                                                                                      even be applicable. The testing to verify external interaction with the
                                                                                      ISP that we simulated in the lab, and that this report considers invalid,
                                                                                      would not involve the 3845s because external interaction tests occur
                                                                                      on the edge of the network, not in the core.

                                                                                      Practically speaking, when IPv6 gets operationally deployed it will
                                                                                      likely be done incrementally on a router by router basis, so having
                                                                                      some 3845 routers with IPv6 implemented and some without is
                                                                                      actually a more realistic test.

                                                                                      In our opinion, it is inaccurate to infer that performing testing as per
                                                                                      the OMB Demonstration assures IPv6 capability or verifies the
                                                                                      viability ofIPv6. The OMB prescribed test scenarios only investigate
                                                                                      specific, limited IP capabilities. The OMB test scenarios do not
                                                                                      provide a comprehensive validation of overall IPv6 readiness because
                                                                                      they do not address applications, integration, management, security,
                                                                                      performance, capacity, interoperability, IT market penetration and
                                                                                      support, commercial viability, or the product and service certification
                                                                                      aspects ofIPv6 migration. Additionally, NIST is just now
                                                                                      establishing IPv6 standards, and USG compliant IPv6 devices are not
                                                                                      expected to be available for acquisition until July 2010.

Recommendation 1
                                                                                      We disagree with this recommendation. We believe that
                                                                                      additional testing as per the OMB Demonstration plan is
                             Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

                         Report Statement                                   Page I                           Comment I Rationale
                                                                          Paragraph

The Assistant Archivist for Information Services should ensure testing   Paragraph 4   unnecessary and that our resources would be better spent on the
required by OMB and outlined in the Federal CIO Council Architecture                   overall NARANET reengineering project of which IPv6 is but one
and Infrastructure Committee "Demonstration Plan to Support Agency                     part. /
IPv6 Compliance," version 1.0 on NARA' s operational core network is
performed and the test results as required by the CIO Council to                       In our exit review on IPv6, performed by GSA on behalf of OMB, no
demonstrate compliance are documented.                                                 concerns were expressed regarding our approach to the IPv6 mandate.
                                                                                       Additionally, NARA received a perfect 5 out of 5 for the IPv6 criteria
                                                                                       score on the FY07 and FY08 EA submissions. OMB is aware of how
                                                                                       we tested, and why we tested in the manner that we did.

                                                                                       The facts are that: (1) NARA is now migrating from Sprint Frame
                                                                                       Relay services to Qwest MPLS services under Networx, and (2) the
                                                                                       TIC requirement will force a complete reconfiguration ofNARA's
                                                                                       ISP interface at the network edge would seem to make additional
                                                                                       testing as prescribed by the OMB Demonstration plan on the current
                                                                                       infrastructure even less useful.

                                                                                       Additionally, OMB has release new draft guidance on IPv6 (The
                                                                                       Business Case and Roadmap for Completing IPv6 Adoption in US
                                                                                       Government, version 0.1, December 22,2008). This new guidance
                                                                                       has new requirements and new timelines, so the past IPv6 activities
                                                                                       associated with M-05-22 have been overtaken by new events and new
                                                                                       requirements. Some items of note:

                                                                                       (1) The new guidance aligns with the approach we have been
                                                                                       pursuing and states that an IPv6 Transition Strategy Plan should be
                                                                                       developed that integrates with other agency activities. 'The IPv6
                                                                                       Transition Strategy Plan should be folded into the Enterprise
                                                                                       Transition Strategy Plan, should link to core mission segments as
                                                                                       appropriate, and should define a specific time line and set of
   Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

Report Statement                    Page I                             Comment I Rationale
                                  Paragraph

                                                milestones to deploy the IPv6-enabled network services defined in the
                                                IT Infrastructure Segment Architecture. As with any other teclmology
                                                integration effort, the plmming effort should consider multiple
                                                timelines, including:

                                                • Budget cycles

                                                • Technology refresh cycles

                                                • IT Infrastructure quality improvements

                                               • Equipment and software certification cycles

                                               • IT project dependencies

                                               • Technology standards development and adoption

                                                 When developing the transition strategy, focus on ensuring that
                                                 network, computing, application, and service components are enabled
                                                 in a sequence that will generate the maximum amount of meaningful
                                                 end-to-end IPv6 activity. At times, an inmlediate incremental change
                                              i 	has advantages over waiting for all IPv6 features to be available in the
                                                 next version of a product.

                                               (2) IPv6 tests should be done in a lab environment - much like we
                                               have done. "Setting up a test lab is important for the safe controlled
                                               introduction of new technology into your network and prototyping
                                               with an emphasis on small scale validation of targeted performance
                                               outcomes (e.g. experimenting with secure IPv6-enabled teleworking).
                                               Testing in a lab enables the agency IT group to perform tests that
   Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

Report Statement                    Page I                               Comment I Rationale
                                  Paragraph
                                                                    .=                       .. ~
                                              could potentially be disruptive or introduce a security risk if deployed
                                              on the production network. The test environment shoulc;l be set up as
                                              close as possible to resemble the production enviromnent. At first, the
                                              test sites should not be cOlmected to the production network or to each
                                              other."

                                               (3) NIST is establishing an official IPv6 Test Program to truly verifY
                                               IPv6 compliance ofIT products. "Following publication of the USG
                                               IPv6 Standards Profile, an infrastructure to demonstrate IPv6 product
                                               compliance needed to be set up. As a result, NIST is establishing a
                                               testing program based on ISO 17025 accredited test laboratories and
                                               standard reference tests, to assure compliance of Hosts, Routers and
                                              Network Protection Devices. NIST is developing a document SP 500­
                                              273 Guidance on IPv6 Test Methods and Validation, due for
                                              pUblication late 2008. This is pre-requisite to open public review of
                                              the test specifications, and Accreditation Bodies' establishing
                                              assessment programs, leading to the creation of Test Laboratories that
                                              adhere to the ISO 17025 "General Requirements for the Competence
                                              of Testing and Calibration Laboratories". The goal is to have USG
                                              compliant IPv6 devices available for acquisition by July 2010.
                                              Compliance is signaled by device vendors issuing a "Suppliers
                                              Declaration of Conformance", based on ISO 17050. Specific
                                              provisions of this SDOC require that host and router products be
                                              tested for conformance and interoperability, and network protection
                                              products undergo functional testing, in accredited laboratories.

                                              (4) Regarding ISPs, we offer the following relevant quote: "The
                                              technical stufffor IPv6 is done. IPv6 is ready. This is a business issue
                                              in the internet service industry. The ISP community round the world
                                              needs to pay attention ... They are persisting in the 'nobody is asking
                                 Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

                            Report Statement                                   Page I 
                             Comment I Rationale
                                                                              Paragraph 

                                                                                            ,h~U          ~~~




                                                                                            for this' mentality. They are not valuing business continuity as they
                                                                                            should. When they finally wake up, there is going to be a mad
                                                                                            scramble for IPv6 and they won't implement it properly". Vinton
                                                                                            Cerf, September 30, 2008.

. NH officials involved in planning for the transition to IPv6 did not                       We believe these paragraphs inaccurately highlight the need to
. 	identify or address risks and challenges associated with the transition.                  address "future" risks and challenges associated with
   This occurred because NH officials have not updated the IPv6 Impact                       implementing IPv6 in NARA's production environment.
   Analysis since June 2006 and based their planning activities on the                       Although it is true that additional work efforts will be required in
   belief that NARA will not operationally enable IPv6 in the near term.                     the future when NARA transitions to IPv6 deployment and
   If not addressed, these risks and challenges may result in increased                      operation, we do not believe that these "future" work efforts are
   costs and security risks associated with the transition.                                  applicable to satisfying the M-05-22 mandate to verify IPv6
                                                                                             capabilities in the network core by June 30, 2008. Additionally,
 OMB Memorandum 05-22 required agencies to begin an impact                                   we believe that we developed and submitted an IPv6 impact
 analysis that included both cost and risk elements. According to the                        analysis as per OMB's prescribed format and guidelines - and in
 memorandum, the risk analysis should include areas such as                                  fact, we submitted it to OMB for review on two separate
 dependencies and interoperability issues, business risks, and security                      occasions as part of our EA submissions. I
 risks. NARA's IPv6 Impact Analysis included a paragraph on each
 area associated with IPv6 implementation required by OMB M-05-22                            These paragraphs, ironically, make the very case we have been
 but did not fully address the associated risks. For example, the Impact                     asserting. We purposely pursued a strategy of "capability
 Analysis does not identify any dependencies or interoperability issues                      verification" rather than "production implementation" to avoid risk to
 involved with IPv6 even though several NARA systems were identified                         NARA. The reason we did not identify implementation, application,
 as dependent on the version of IP that is used and did not support IPv6.                    integration, and business risk is because we approached this effort as
 According to the Impact Analysis, "this project is only dependent upon                      a capability verification project, not an implementation project. In
 approval of the funding and staffing that is required to implement it. It                   other words, the management of these types of risks are applicable to
  is completely self-contained and will not interoperate with any other                      future projects that will actually transition IPv6 to production
 system or project."                                                                         operations. They are not applicable to a project that is only verifying
                                                                                             IPv6 capabilities in the network core.
  The Impact Analysis did not identify any business impact or risk
  associated with the transition to IPv6. However, several critical NARA                      Applications and integration were not even in scope for this initial
                              Detailed Responses to DIG IPv6 Audit Report No. 09-05, January 16, 2009

                          Report Statement                                   Page I                              Comment I Rationale 

                                                                           Paragraph 

business applications, including the Case Management and Reporting
System (CMRS) and the Archival Research Catalog (ARC), were found                        effort, although we did identify the applications that will have IPv6
to be dependent upon the version of IP that is used. According to the                    dependencies when the production implementation of IPv6 is
CTO, NARA has lots of homegrown applications that run on IPv4 and                        addressed. In our opinion, the OMB mandate did not require us to
                                                                                         address application integration and rework by June 30, 2008.
it has yet to be detennined what percentage of those applications can
easily use IPv6. The CTO also stated ARC and CMRS would require
substantial work to be able to support IPv6.

In another example, the Impact Analysis considered IPv6 to be no more     Page 8/
or less secure than IPv4 and therefore, would not pose any new security                  We disagree and stand by our stated assertions for the
                                                                          Paragraph 4    verification tests. IPv6 was purposely not made operational, so
risks to IT operations. Reports issued by the Government
Accountability Office along with a Department of Homeland Security                       these risks would not be incurred using our verification test
                                                                                         approach. /
US-CERT advisory discuss multiple security issues concerning IPv6.
According to GAO, IPv6 creates new opportunities for network abuse if
IPv6 capable devices are not properly managed. Two IPv6 features­                        This paragraph is just a general statement of potential risks; it does
automatic configuration and tunneling-could present serious risks to                     not specify risks applicable to this project that were not effectively
federal agencies. Automatic configuration can facilitate network                         identified and mitigated. We do not believe that our testing scenarios
attacks because a rogue or unauthorized router may reconfigure                           exposed the agency to any auto configuring, tunneling, or poor IP
neighboring devices by assigning them new addresses and routes.                          management risks. This paragraph actually supports our rationale for
Tunneling can permit unauthorized traffic into the network undetected.                   not making IPv6 operational at this time, re: security. This is one
The US-CERT alert warned federal agencies that unmanaged, or rogue,                      reason we pursued a capabilities verification approach, and rolled it
                                                                                         back.
implementations ofIPv6 present network management security risks.
NARA's Impact Analysis did not address these security risks.

The IPv6 Impact Analysis identified training costs for 15 NH              Page 8 /
employees involved in the IPv6 transition however, training has not                      IPv6 is not running in production operations so there is nothing
                                                                          Paragraph 5    to train at this time. /
been provided. According to GAO, a challenge to the transition will be    onto page 9
maintaining dual IPv4 and IPv6 environments for extended periods of
time. Maintaining two network protocols is challenging in that it adds                   In our opinion, the training requirement will not manifest itself until
                                                                                         IPv6 goes into production operations. The engineers involved in the
                              Detailed Responses to DIG IPv6 Audit Report No. 09-05, January 16, 2009

                         Report Statement                                  Page I                              Comment I Rationale
                                                                         Paragraph
                                    .~"          ''''''''
complexity to network maintenance and associated costs are higher. It
also requires skilled personnel and may be difficult to maintain                       . test did not require training because IPv6 was part of their skill-set.
                                                                                         This paragraph actually supports our rationale for not making IPv6
hardware and software interoperability across dual environments.
                                                                                         operational at this time, re: operations complexity. This is one reason
NARA IPv6 planning documents did not address this challenge
                                                                                         we pursued a capabilities verification approach, and rolled it back.

Recommendation 2                                                        Page 9 /        We agree with the recommendation, but this should be handled as
                                                                        Paragraph 4     part of the NARANET redesign project as per our stated strategy
The Assistant Archivist for Information Services should update the
                                                                                        and OMB's new guidelines.
IPv6 Impact Analysis to address the security and business risks
associated with implementing IPv6.
                                                                                        This should not be infelTed as an issue of compliance with the past M­
                                                                                        05-22 mandate requiring a specific impact analysis at a past point in
                                                                                        time, which we did, in fact, provide. Additionally, risks associated
                                                                                        with "implementing" IPv6 were not applicable to this project because
                                                                                        there was no requirement or intent to "implement" IPv6 in
                                                                                        production, just to verify certain IPv6 capabilities in the network core.
                                                                                        We also assert that going forward; we need an impact analysis for the
                                                                                        overall NARANET redesign, not just for IPv6 unto itself.

Recommendation 3                                                        Page 9 /        We agree with the recommendation, but this should be handled as
                                                                        Paragraph 5     part of the NARANET redesign project as per our stated strategy
The Assistant Archivist for Information Services should ensure                          and OMB's new guidelines.
employees responsible for planning, implementing, maintaining, and
securing an IPv6 network for NARA receives appropriate IPv6 training.
                                                                                        This should not be infelTed as an issue of compliance with the past M­
                                                                                        05-22 mandate. We would note that this is not really a matter of
                                                                                        training but rather a skill required for network engineers going
                                                                                        forward - much like IPv4 currently.

In another example, NARA bought equipment in September 2005 that        Page II/Last    This is not a full characterization of what happened. /
had to be upgraded or replaced in order for the devices to be IPv6
                              Detailed Responses to OIG IPv6 Audit Report No. 09-05, January 16, 2009

                          Report Statement                                  Page I                             Comment I Rationale 

                                                                          Paragraph 

~ompliant.   NARA spent $340,000 f~r 40 Cisco 3845 routers with          Paragraph
accessories. The devices were not IPv6 capable because the router                       These upgrades were not only purchased for IPv6, but also to support
operating system did not have the feature pack needed to support IPv6                   the long term administration and management of Cisco's lOS
traffic. In September 2008, NARA spent $216,000 to purchase                             enterprise-wide and to support the transition to MPLS under Networx.
upgrades for the router operating systems, flash memory cards, and
memory upgrades.

Recommendation 4
                                                                         Page 12/       While NA will provide a response to these recommendations, we
                                                                         Paragraph 2    have the following comments as to their context: /
The Assistant Archivist for Administration should direct the Director,
Acquisitions Services Division to:
                                                                                        Although we agree that we should try to acquire IPv6 capable
                                                                                        products and services, we need to recognize that some product
a.) Develop standard contract language for all IT orders to require IT
products and services be IPv6 compliant; and                                            vendors and service providers may not provide products that are fully
                                                                                        IPv6 capable at this time, and some segments of the market like ISPs,
                                                                                        IP telephony vendors, security product vendors, and middleware
b.) Update the NARA Procurement Guide to require all acquisitions of
IT hardware, software, and services be IPv6 compliant.                                  vendors have not yet transitioned to IPv6. As stated in the very last
                                                                                        paragraph of the IPv6 Closeout Report: "It may not make sense to re­
                                                                                        engineer and upgrade platforms having a five year life expectancy to
                                                                                        support a technology that is not expected to attain wide-scale adoption
                                                                                        for five to ten years." NARA needs to be careful not to prohibit the
                                                                                        use of products and services needed to support today's business
                                                                                        operations because they don't yet support an implementation
                                                                                        requirement that may be more than 5 years in the future. OMB M-05­
                                                                                        22 actually states that:

                                                                                        "To avoid unnecessary costs in the future, you should, to the
                                                                                        maximum extent practicable, ensure that all new IT procurements are
                                                                                        IPv6 compliant. Any exceptions to the use of IPv6 require the
                                                                                        agency's CIO to give advance, written approval. .. "
